  Report No. D-2007-124          September 27, 2007




Report on Purchases Made Using the U.S. Joint Forces
       Command Limited Acquisition Authority
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Department of
  Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
  Secondary Reports Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax
  (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Office of the Deputy
  Inspector General for Auditing at (703) 604-9142 (DSN 664-9142) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                             ODIG-AUD (ATTN: Audit Suggestions)
                             Department of Defense Inspector General
                             400 Army Navy Drive (Room 801)
                             Arlington, VA 22202-4704




Acronyms
GAO                   Government Accountability Office
O&M                   Operations and Maintenance
RDT&E                 Research, Development, Test, and Evaluation
USJFCOM               U.S. Joint Forces Command
                              INSPECTOR GENERAL
 

                             DEPARTMENT OF DEFENSE
 

                              400 ARMY NAVY DRIVE
 

                         ARLINGTON, VIRGINIA 22202-4704
 





                                                                      September 27,2007

MEMORANDUM FOR UNDER SECRETARY OF DEFENSE FOR ACQUISITION,
                 TECHNOLO GY, AND LOGISTICS
               UNDER SECRETARY OF DEFEN SE
                 (COMPTROLLER)/CHIEF FINANCIAL OFFICER
               DIREC TOR, JOINT STAFF
               COMMANDER, U.S. JOINT FORCES COMMAND

SUBJECT: Report on Purchase s Made Using the U.S. Joint Forces Command Limited
         Acquisition Authority (Report No. D-2007 -124)


      We are providing this report for review and comm ent. We considered
management comments on a draft of this report in preparing the final report.

      DoD Directive 7650.3 requires that all recommendations be resolved promptly.
The Deputy Commander, U.S. Joint Forces Command provided comments for this report.
The comments were partially responsive. Therefore, we request additional comments on
Recommendations l.b., 3., and 4. by October 28,2007.

        If possible, please send management comments in electronic format (Adobe
Acrobat file only) to AUDACM@dodig.mil. Copies of the management comments must
contain the actual signature of the authori zing official. We cannot accept the / Signed /
symbol in place of the actual signature. If you arrange to send classified comments
electronically, they must be sent over the SECRET Internet Protocol Router Network
(SIPRNET).

       We appreciate the courtesies extended to the staff. Questions should be directed
to Ms. Deborah L. Culp at (703) 604-9335 (DSN 664-9335) or Ms. Dianna 1. Pearson at
(703) 604-9063 (DSN 664-9063). The audit team members are listed inside the back
cover. See Appendix C for the report distribution.

                               By direction of the Deputy Inspector General for Auditing:




                                           Richard B. Jollif e
 

                                     Assistant Inspector General
 

                                 Acquisition and Contract Management
 

               Department of Defense Office of Inspector General
Report No. D-2007-124                                                September 27, 2007
   (Project No. D2006-D000CG-0066.000)

                 Purchases Made Using the U.S. Joint Forces 

                  Command Limited Acquisition Authority 


                                 Executive Summary 


Who Should Read This Report and Why? DoD personnel who are responsible for
special purpose authorities and programs should read this report. The report addresses
the potential mismanagement or abuse of the authority or program if personnel do not
follow or document procedures.

Background. We performed the audit at the request of the Inspector General, U.S. Joint
Forces Command, who needed support with a congressionally mandated audit of their
limited acquisition authority. The U.S. Joint Forces Command Inspector General is
required by section 167a, title 10, United States Code, “Unified Combatant Command for
Joint Warfighting Experimentation: Acquisition Authority,” to conduct internal audits
and inspections of purchasing and contracting administered under the limited
authorization authority. Specifically, the Secretary of Defense, under the limited
acquisition authority, can delegate authority to the Commander, U.S. Joint Forces
Command to accelerate joint initiatives of combatant commanders, Services, and Defense
agencies to meet the needs of the joint warfighter, facilitate joint operations, or enhance
interoperability. Section 848 of the National Defense Authorization Act for Fiscal
Year 2004, “Limited Acquisition Authority for Commander of U.S. Joint Forces
Command,” sets monetary limits on the limited acquisition authority of $10 million for
research, development, test, and evaluation and $50 million for procurement. The
National Defense Authorization Act for Fiscal Year 2004 provides the limited acquisition
authority through FY 2006 and Section 846 of the National Defense Authorization Act
for Fiscal Year 2006, “Extension of Limited Acquisition Authority for the Commander of
the U.S. Joint Forces Command,” extends the limited acquisition authority through
FY 2008.

From October 1, 2004, through December 31, 2005, U.S. Joint Forces Command
personnel received nine requests for limited acquisition authority purchases and approved
six projects valued at $12.1 million. As of March 2007, U.S. Joint Forces Command
personnel had not used the limited acquisition authority for purchases since
December 2005.

Results. U.S. Joint Forces Command personnel did not maintain effective acquisition
oversight and accountability over limited acquisition authority purchases. If this
continues, U.S. Joint Forces Command personnel could mismanage or abuse the limited
acquisition authority for purchases or incur potential Antideficiency Act violations.
U.S. Joint Forces Command personnel should maintain documentation for mandatory
procedures for limited acquisition authority purchases, specify on the funding documents
that the funding can be used only for limited acquisition authority purchases, approve the
limited acquisition authority projects before funding the projects, review purchases
funded with operations and maintenance funding for proper use of funding, and develop
memorandums of agreement or understanding with organizations providing contract


                                             i
support for limited acquisition authority purchases. See the Finding section of the report
for the detailed recommendations.

We identified internal control weaknesses for the limited acquisition authority purchases.
U.S. Joint Forces Command personnel either did not follow controls for the purchases or
the controls were not adequate. We did not consider the internal control weaknesses to
be material.

Management Comments and Audit Response. U.S. Joint Forces Command personnel
nonconcurred with the report stating that they did not accept the broad conclusion that
internal controls have been ineffective for acquisition oversight and control for limited
acquisition authority purchases. Also, U.S. Joint Forces Command personnel
nonconcurred with three of the four recommendations stating that alleged weaknesses in
purchasing and contracting identified in the report should either not be made or should be
marked as actions by others since U.S. Joint Forces Command has no contracting
authority to award or administer contracts. The U.S. Joint Forces Command personnel
comments were responsive to recommendations that personnel better document
completed mandatory processes and exceptions to those processes. The U.S. Joint Forces
Command personnel comments were nonresponsive to recommendations that personnel
specify that funding documents are for limited acquisition authority purchases, that
personnel review purchases made with operations and maintenance funding for proper
use of funding, and that personnel establish memorandums of agreement or
understanding with contracting offices.

U.S. Joint Forces Command policy requires that its personnel provide appropriate
acquisition oversight and accountability for all approved limited acquisition authority
purchases. The policy establishes mandatory documentation requirements for limited
acquisition authority projects, such as statements of work, feasibility assessments, and
plans of action and milestones, and addresses completing mandatory procedures before
obligating funds. Based on file documentation, we determined that U.S. Joint Forces
Command personnel did not provide adequate audit trails for the limited acquisition
authority purchases to show that they actually completed mandatory documentation
requirements or approved projects before they funded the purchases. Since the absence
of the documentation does not necessarily mean that U.S. Joint Forces Command
personnel did not complete the requirements, we did not consider the documentation
issue to be material. Nevertheless, U.S. Joint Forces Command personnel did not follow
the internal controls their policy established. Because U.S. Joint Forces Command
personnel bypassed the internal controls they established to provide adequate acquisition
oversight and accountability for the purchases, they diminished the effectiveness of the
controls.

We consider contracting to be a significant part of the process to obtain the limited
acquisition authority purchases for the warfighter. Our concerns about contracting
focused on the need for U.S. Joint Forces Command personnel to establish agreements
with the contracting offices that service them rather than on the weaknesses in
contracting and purchasing. Developing agreements with the contracting offices should
provide better accountability for both U.S. Joint Forces Command and contracting
personnel for the purchases while also defining performance requirements for the
acquisition process. Therefore, we request that the Commander, U.S. Joint Forces
Command provide comments on this report by October 22, 2007. See the Finding
section of the report for a discussion of management comments and the Management
Comments section of the report for the complete text of the comments.


                                            ii
Table of Contents 

Executive Summary                                                         i


Background                                                                1


Objectives                                                                3


Review of Internal Controls                                               3


Finding 

      Acquisition Oversight and Accountability for USJFCOM Limited   

        Acquisition Authority Purchases                                   4


Appendixes
      A. Scope and Methodology 	                                         14 

           Prior Coverage                                                15 

      B. Projects for Limited Acquisition Authority Purchases 	          16 

      C. Report Distribution 	                                           17 


Management Comments
      U.S. Joint Forces Command 	                                        19

Background 

    We performed the audit at the request of the Inspector General, U.S. Joint Forces
    Command (USJFCOM), who needed support with a congressionally mandated
    audit of their limited acquisition authority. The Inspector General, USJFCOM is
    required by section 167a, title 10, United States Code, “Unified Combatant
    Command for Joint Warfighting Experimentation: Acquisition Authority,” to
    conduct internal audits and inspections of purchasing and contracting
    administered under the limited authorization authority.

    Limited Acquisition Authority Purpose. Section 848 of the National Defense
    Authorization Act for Fiscal Year 2004, “Limited Acquisition Authority for
    Commander of U.S. Joint Forces Command,” authorizes the Secretary of Defense
    to delegate limited acquisition authority for the development and acquisition of
    equipment for battle management command and control, communications, and
    intelligence that facilitates the use of joint forces in military operations or
    enhances the interoperability of equipment used in the various Components of the
    joint forces. Specifically, the Secretary of Defense, under the limited acquisition
    authority, can delegate authority to the Commander, USJFCOM to accelerate
    joint initiatives of combatant commanders, Services, and Defense agencies to
    meet the needs of the joint warfighter, facilitate joint operations, or enhance
    interoperability. The National Defense Authorization Act for Fiscal Year 2004
    sets monetary limits on the limited acquisition authority of $10 million for
    research, development, test, and evaluation (RDT&E) and $50 million for
    procurement. The National Defense Authorization Act for Fiscal Year 2004
    provides the limited acquisition authority through FY 2006 and Section 846 of the
    National Defense Authorization Act for Fiscal Year 2006, “Extension of Limited
    Acquisition Authority for the Commander of the U.S. Joint Forces Command,”
    extends the limited acquisition authority through FY 2008.

    Policy for the Limited Acquisition Authority. USJFCOM personnel can use
    the limited acquisition authority as a means to rapidly produce and field a
    critically needed warfighting capability. USJFCOM Directive 4200.1, “U.S. Joint
    Forces Command Limited Acquisition Authority (LAA) Policy,” July 14, 2005,
    provides policy for purchases made using limited acquisition authority and
    USJFCOM Instruction 4200.1, “U.S. Joint Forces Command (USJFCOM)
    Limited Acquisition Authority (LAA) Procedures,” July 14, 2005, provides
    procedures for the purchases.

    Requirements for USJFCOM. USJFCOM Directorates, Special Staff, and
    Subordinate Commands follow both the Directive and the Instruction. According
    to USJFCOM Instruction 4200.1, USJFCOM personnel must provide appropriate
    acquisition oversight and accountability for all approved limited acquisition
    authority projects. Each justification or request must clearly identify total project
    cost as well as the appropriate joint functional capability or mission area. The
    program manager for the project should ensure that the applicable USJFCOM
    Components receive documentation of the total requirement and that personnel
    complete all mandatory procedures and waiver processes before they obligate
    funds for limited acquisition authority projects. USJFCOM Instruction 4200.1
    also identifies mandatory procedures for the limited acquisition authority


                                          1

purchases. In providing appropriate acquisition oversight and accountability,
procedures included, but were not limited to:

       •	 identifying the purchases for the limited acquisition authority,

       •	 identifying the projected total system cost and mapping the project to
          the appropriate joint functional capability or mission area,

       •	 preparing an initial feasibility assessment, and

       •	 preparing a plan of action and milestones for the approved projects.

Requirements for DoD Combatant Commanders. DoD combatant
commanders submitting requests under the limited acquisition authority must also
follow the Directive and Instruction. Requestors who submit a purchase for
limited acquisition authority consideration must prepare a concept justification, a
statement of work, a funding plan, and a draft plan of action and milestones.
They must identify improvements in battle management command and control,
interoperability, communications, intelligence or joint warfighting capability, and
products or services required. In addition, requestors must state whether the
purchase is part of other limited acquisition authority purchases and identify other
amounts proposed for limited acquisition authority, if applicable. Further,
requestors must provide written acknowledgement that a bona fide need exists for
the desired purchase and a justification to support why the purchase should be
selected as a limited acquisition authority project.

Limited Acquisition Authority Processing. USJFCOM personnel can use the
limited acquisition authority as a method to expedite concept generation and to
develop and field urgent joint warfighting requirements. Based on USJFCOM
Instruction 4200.1, USJFCOM personnel process the limited acquisition authority
in the following phases.

       Phase I. The requesting command, agency, or Service delivers the
concept justification to USJFCOM personnel.

        Phase II (a). USJFCOM personnel approve or disapprove the feasibility
and concept within 15 days of receipt. USJFCOM personnel return to the
originator requests they do not approve and provide the reason for disapproval.

       Phase II (b). USJFCOM personnel obtain funding when they approve a
request.

        Phase III. USJFCOM personnel develop, review, and approve the plan of
action and milestones within 30 days of funding approval.

       Phase IV. USJFCOM personnel execute the limited acquisition authority
request within 60 to 180 days of project approval. The timeline is dependent on
whether contracting offices USJFCOM personnel use issue new contracts for the
purchases or add them to existing contracts.




                                     2

Objectives 

     The Inspector General, USJFCOM requested the audit. The overall objective was
     to determine whether USJFCOM personnel properly used the limited acquisition
     authority for joint warfighting experimentation. Specifically, we determined
     whether the purchases made using limited acquisition authority complied with
     Federal and DoD requirements. We also reviewed the internal control program as
     it relates to the overall objective. See Appendix A for a discussion of the scope
     and methodology and prior coverage related to the objectives.

Review of Internal Controls
     We limited our review of the internal control program to the internal controls
     associated with the acquisition oversight and accountability of limited acquisition
     authority purchases. We identified internal control weaknesses for the limited
     acquisition authority purchases as identified by DoD Instruction 5010.40,
     “Managers’ Internal Control (MIC) Program Procedures,” January 4, 2006.
     USJFCOM personnel either did not follow controls for the purchases or the
     controls were not adequate. We did not consider the internal control weaknesses
     to be material. USJFCOM personnel can improve controls for limited acquisition
     authority purchases by maintaining documentation showing that they completed
     mandatory procedures for limited acquisition authority purchases, coordinating
     the funding process with the approval process, consistently specifying that
     funding on funding documents is for limited acquisition authority purchases, and
     developing memorandums of agreement or understanding with contracting offices
     on roles and responsibilities for the limited acquisition authority purchases.
     Implementing the report recommendations should strengthen controls for limited
     acquisition authority purchases. See the Finding section of the report for the
     detailed discussion on the internal controls.




                                          3

           Acquisition Oversight and Accountability
           for USJFCOM Limited Acquisition
           Authority Purchases
           USJFCOM personnel did not maintain effective acquisition oversight and
           accountability for the limited acquisition authority purchases because
           USJFCOM personnel either did not follow controls established for the
           limited acquisition authority purchases or the controls were not adequate.
           Specifically, USJFCOM personnel did not:

                  •	 document that they completed mandatory procedures for
                     limited acquisition authority purchases for the 6 projects;

                  •	 specify that funding was for limited acquisition authority
                     purchases on 43 of 47 funding documents;

                  •	 approve 4 of 6 projects before they processed the funding
                     documents for purchases;

                  •	 use funding specifically authorized by the National Defense
                     Authorization Act for Fiscal Year 2004 for 2 of the 6 projects
                     and instead used operations and maintenance (O&M) funding;
                     and

                  •	 document memorandums of agreement or understanding with
                     contracting offices on roles and responsibilities for the
                     purchases for any of the projects.

           If this continues, USJFCOM personnel could mismanage or abuse the
           limited acquisition authority for purchases or incur potential
           Antideficiency Act violations.

Review of Limited Acquisition Authority Purchases
    USJFCOM personnel did not maintain effective acquisition oversight and
    accountability for the limited acquisition authority purchases. Although
    USJFCOM personnel received nine requests for limited acquisition authority
    purchases, they approved six projects valued at $12.1 million from October 1,
    2004, through December 31, 2005. We reviewed all of the approved projects to
    determine whether USJFCOM personnel complied with established policies and
    procedures for limited acquisition authority purchases. See Appendix B for the
    six projects reviewed. As of March 2007, USJFCOM personnel had not used the
    limited acquisition authority for purchases since December 2005.




                                        4

Controls for Limited Acquisition Authority Purchases 

     USJFCOM personnel either did not follow the controls established for the limited
     acquisition authority purchases or they had controls that were not adequate.
     Specifically, USJFCOM personnel did not have documentation in their project
     files to show that they completed mandatory procedures for limited acquisition
     authority purchases. USJFCOM personnel also did not specify on 43 of 47
     funding documents that the funding was exclusively for limited acquisition
     authority purchases. In addition, USJFCOM personnel did not coordinate the
     funding process with the approval process and, as a result, personnel processed
     funding documents for purchases before they approved the projects. Further, on
     two projects, USJFCOM personnel used O&M funding that was not specifically
     authorized by the National Defense Authorization Act for Fiscal Year 2004.
     Finally, USJFCOM personnel did not document memorandums of agreement or
     understanding on roles and responsibilities with the contracting offices for the
     limited acquisition authority purchases. If this continues, USJFCOM personnel
     could mismanage or abuse the limited acquisition authority for purchases or incur
     potential Antideficiency Act violations.

     Documenting Mandatory Procedures for Purchases. USJFCOM personnel did
     not document in their project files that they completed mandatory procedures for
     limited acquisition authority purchases. USJFCOM Instruction 4200.1 requires
     that USJFCOM personnel complete mandatory procedures, such as identifying
     purchases made under the limited acquisition authority and preparing the
     feasibility assessment before they obligate funds for the purchases. Although
     USJFCOM personnel stated that they followed procedures and completed all
     requirements, the project files for the six projects did not contain sufficient
     documentation showing that USJFCOM personnel actually completed the
     mandatory procedures. For example, of the six projects reviewed, USJFCOM
     personnel did not document in the project files a request date for Projects 1, 3, 5,
     and 6 or an approval signature for Project 1. In addition, USJFCOM personnel
     did not document in any of the project files that they prepared the required
     feasibility assessments or plans of action and milestones. USJFCOM personnel
     provided electronic plans of action and milestones for Projects 1, 3, 4, 5, and 6
     after the audit exit conference; however, we did not reexamine project files to
     determine whether USJFCOM personnel actually placed the documentation in the
     project files. Table 1 shows the project file documentation problems for
     mandatory requirements for the six projects.




                                          5

Table 1. Documentation for Limited Acquisition Authority Purchases

Project File Documentation                                  Project
                                             1        2       3      4         5        6
1. Requested Date                           No       Yes     No     Yes       No       No
2. Approval Signature                       No       Yes    Yes Yes           Yes      Yes
3. Approval Date                            No       Yes     No     Yes       Yes      Yes
4. Request Justification                    Yes      Yes    Yes Yes           Yes      Yes
5. Statement of Work                        Yes      Yes    Yes Yes           Yes      Yes
6. Cost Estimate                            Yes      Yes    Yes Yes           Yes      Yes
7. Proof of Concept Evaluation1             No       No      No     No        No       No
8. Feasibility Assessment                   No2      No      No     No        No       No
9. Plan of Action and Milestones3           Yes      No     Yes Yes4          Yes      Yes
1
  Proof of concept was not required because purchases were added to existing contracts. 

2
  According to USJFCOM personnel, the project did not require a feasibility assessment. 

3
  USJFCOM personnel provided documentation after the audit exit conference. 

4
  USJFCOM personnel prepared the plan of action and milestones in FY 2004 and approved the 

project in FY 2005. 



After the audit exit conference, USJFCOM personnel provided plans of action
and milestones but one plan did not comply with USJFCOM policy. According
to USJFCOM Instruction 4200.1, USJFCOM personnel should develop the plan
of action and milestones after they approve the projects. However, as shown in
Table 1, USJFCOM personnel developed the plan of action and milestones for
Project 4 before they approved the project. In addition, USJFCOM Instruction
4200.1 requires a Proof of Concept Evaluation for each project. However,
USJFCOM personnel stated that Proof of Concept Evaluations were not needed
because purchases were added to existing contracts.

Further, USJFCOM personnel did not document management decisions relating
to the projects in the project files. USJFCOM Instruction 4200.1 requires that
USJFCOM personnel complete mandatory procedures but does not require them
to maintain documentation to show that they completed the mandatory
procedures. However, maintaining documentation is a good internal control to
provide assurance that USJFCOM personnel completed mandatory procedures for
the limited acquisition authority purchases.

Specifying That Funding on Funding Documents Is for Purchases.
USJFCOM personnel did not consistently specify that funding on funding
documents was exclusively for limited acquisition authority purchases. Funding
documents for the purchases included Military Interdepartmental Purchase
Requests and Navy Comptroller Forms 2275 and 2276. USJFCOM personnel
provided us with 47 funding documents for the 6 projects. However, only
four funding documents, one each for Projects 1 and 3, and two for Project 5,
specified that the funding was for limited acquisition authority purchases.


                                         6

 Consequently, USJFCOM personnel processed 43 of the 47 funding documents
 that did not specify that funding was for limited acquisition authority purchases.
 Although USJFCOM Instruction 4200.1 requires that each justification/request
 clearly identify purchases made under the limited acquisition authority, the
 Instruction did not follow through to also require that USJFCOM personnel
 identify the funding documents used for the limited acquisition authority
 purchases. However, if USJFCOM personnel specified that funding on the
 funding documents can be used only for limited acquisition authority purchases,
 organizations processing the funding documents would immediately know that
 the funding documents contain special purpose funding. Table 2 and Appendix B
 show the number of funding documents that USJFCOM personnel provided for
 the six projects and the number of funding documents that specified that funds
 were for limited acquisition authority purchases.

 Table 2. USJFCOM Funding Documents

            Number of Funding Documents        Funding Documents That Specified
              Processed for the Limited          That Funding Was for Limited
            Acquisition Authority Purchases     Acquisition Authority Purchases
Project 1                  2                                   1
Project 2                 12                                   0
Project 3                  2                                   1
Project 4                 20                                   0
Project 5                  3                                   2
Project 6                  8                                   0
   Total                  47                                   4


 Approving Projects Before Funding Purchases. USJFCOM personnel
 processed funding documents for four projects before they approved the projects.
 For example, USJFCOM personnel processed the first funding document for
 Project 2 on January 13, 2005, but did not approve the project until July 15, 2005.
 USJFCOM personnel also processed funding documents for Projects 1, 4, and 5
 before they approved the projects (see Appendix B for the funding document
 dates and the project approval dates). The practice conflicted with the USJFCOM
 Instruction 4200.1 requirement to complete mandatory procedures before
 USJFCOM personnel obligate funds for limited acquisition authority projects.
 Also, if USJFCOM personnel fund a project before a reviewer approves it, the
 reviewer could feel pressured to approve a project that might not meet the bona
 fide need criteria, facilitate joint operations, or enhance interoperability. To
 adhere to its mandatory procedures, USJFCOM personnel should align the
 funding process for purchases with the approval process for projects. The
 alignment should prevent future occurrences of USJFCOM personnel funding
 purchases before they approve projects.

 Using Authorized Funding for Purchases. USJFCOM personnel used O&M
 funding that was not specifically authorized by the National Defense
 Authorization Act for Fiscal Year 2004 on Projects 1 and 5, or two of the six
 projects reviewed. The National Defense Authorization Act for Fiscal Year 2004


                                      7

    and USJFCOM Instruction 4200.1 allow the use of RDT&E and procurement
    funding for limited acquisition authority purchases. Although the National
    Defense Authorization Act for Fiscal Year 2004 and USJFCOM Instruction
    4200.1 are silent on the use of O&M funding for limited acquisition authority
    purchases, financial records obtained from the contracting offices show that
    USJFCOM personnel cited O&M funding for purchases on the two projects.
    USJFCOM personnel should determine whether O&M was the proper funding for
    the limited acquisition authority purchases when the National Defense
    Authorization Act for Fiscal Year 2004 and the USJFCOM Instruction designated
    the use of RDT&E and procurement for the purchases. If USJFCOM personnel
    determine that O&M funding was not the proper funding, they should determine
    whether proper funding is available and make corrections to the purchases.

    Documenting Memorandums of Agreement or Understanding. USJFCOM
    personnel did not document in their project files memorandums of agreement or
    understanding between USJFCOM personnel and the contracting office personnel
    on the roles and responsibilities of all participants for the limited acquisition
    authority purchases. USJFCOM personnel have a responsibility to provide
    appropriate acquisition oversight and accountability for the limited acquisition
    authority purchases. Because USJFCOM personnel rely on other organizations
    for contract support, they need to address how they will comply with the
    requirement for acquisition oversight and accountability. Although the
    memorandums are not mandatory at USJFCOM, developing memorandums with
    the contracting offices represent “best practices” for organizations that provide
    services for or receive services from other organizations. In addition to
    documenting roles and responsibilities, memorandums clarify expectations of the
    participants. DoD Instruction 4000.19, “Interservice and Intragovernmental
    Support,” August 9, 1995, provides policy and procedures for memorandums of
    agreement and understanding. Ideally, USJFCOM personnel should develop
    memorandums that address roles and responsibilities of USJFCOM personnel and
    contracting office personnel for limited acquisition authority purchases, review
    and oversight of contractors, and subsequent actions required if problems with the
    purchases occur. USJFCOM personnel should also assess the extent to which
    contracting offices they use adhere to practices and procedures for the purchases
    and comply with Federal and DoD requirements. Developing memorandums that
    identify roles and responsibilities for all participants for limited acquisition
    authority purchases is a good internal control that could also expedite solutions if
    problems occur with the purchases.

Conclusion
    USJFCOM personnel either did not follow the controls established for the limited
    acquisition authority purchases or they had controls that were not adequate.
    USJFCOM personnel did not have sufficient documentation showing that they
    completed mandatory procedures for the limited acquisition authority purchases.
    USJFCOM personnel rarely specified on the funding documents that the funding
    was only for a limited acquisition authority purchase, and, in some cases,
    USJFCOM personnel processed funding for purchases before they approved the
    projects. In addition, USJFCOM personnel used O&M funding that was not
    specifically authorized by the National Defense Authorization Act for Fiscal Year


                                         8

    2004 for limited acquisition purchases. Further, USJFCOM personnel did not
    document agreements on roles and responsibilities of all participants concerning
    contracting for limited acquisition authority purchases. Until USJFCOM
    personnel address those issues, USJFCOM personnel could mismanage or abuse
    the limited acquisition authority for purchases or incur potential Antideficiency
    Act violations.

Management Comments on the Finding
    USJFCOM Comments. USJFCOM personnel basically nonconcurred with the
    report stating that they did not accept the broad conclusion that internal controls
    had been ineffective at acquisition oversight and control for limited acquisition
    authority purchases. Also, USJFCOM personnel nonconcurred with three of the
    four recommendations, stating that the alleged weaknesses in purchasing and
    contracting identified in the report should either not be made or should be marked
    as actions by others since USJFCOM has no contracting authority to award or
    administer contracts. USJFCOM personnel stated they are responsible for
    satisfying requirements related to the preparation and approval of limited
    acquisition authority projects but rely on other offices to perform acquisition
    functions. Further, the internal controls designed and implemented by the limited
    acquisition authority Program Management Office have been effective and
    sufficient.

    Audit Comments. The USJFCOM Inspector General requested that we conduct
    the audit of the limited acquisition authority because he did not have the resources
    to conduct the congressionally mandated audit. We reviewed the policy that
    USJFCOM personnel established for the limited acquisition authority purchases
    and found that they had not followed the policy they had established for the
    limited acquisition authority purchases. While the reasons for deviating from
    policy requirements may have been valid, USJFCOM personnel did not document
    those reasons.

    USJFCOM policy requires that USJFCOM personnel provide appropriate
    acquisition oversight and accountability for all approved limited acquisition
    authority purchases. The policy establishes mandatory documentation
    requirements for limited acquisition authority projects, such as statements of
    work, feasibility assessments, and plans of action and milestones, and addresses
    completing mandatory procedures before obligating funds. Based on file
    documentation, we determined that USJFCOM personnel did not provide
    adequate audit trails for the limited acquisition authority purchases to show that
    they actually completed mandatory documentation requirements or approved
    projects before they funded the purchases. Since the absence of the
    documentation does not necessarily mean that USJFCOM personnel did not
    complete the requirements, we did not consider the documentation issue to be
    material. Nevertheless, USJFCOM personnel did not follow the internal controls
    their policy established. Because U.S. Joint Forces Command personnel bypassed




                                         9

    the internal controls they established to provide adequate acquisition oversight
    and accountability for the purchases, they diminished the effectiveness of the
    controls.

    We consider contracting to be a significant part of the process to obtain the
    limited acquisition authority purchases for the warfighter. Our concerns about
    contracting focused on the need for USJFCOM personnel to establish agreements
    with the contracting offices that service them rather than on the weaknesses in
    contracting and purchasing. Because USJFCOM personnel rely on several
    contracting offices for the purchases but have no agreements with the offices, they
    have basically delegated acquisition responsibility without addressing
    accountability or performance. Developing agreements with the contracting
    offices should provide better accountability for both USJFCOM and contracting
    personnel for the purchases while also defining performance requirements for the
    acquisition process. Addressing requirements and expectations for the purchases
    should also help resolve the issues that could arise concerning the purchases as
    well as improve overall controls for the purchases.

Recommendations, Management Comments, and Audit
  Response
    We recommend that the Commander, U.S. Joint Forces Command:

    1. Revise U.S. Joint Forces Command Instruction 4200.1, “U.S. Joint Forces
    Command (USJFCOM) Limited Acquisition Authority (LAA) Procedures,”
    July 14, 2005, to require personnel to:

            a. Document that they completed mandatory procedures for limited
    acquisition authority purchases and maintain the documentation at least
    until the conclusion of the project.

    USJFCOM Comments. The Deputy Commander USJFCOM only partially
    concurred, stating that USJFCOM personnel maintain documents in accordance
    with DoD Financial Management Regulation and National Archives and Records
    Administration guidance and that USJFCOM personnel retain the procurement or
    purchase organization copy and related papers that exceed $2,000 for 6 years and
    3 months after final payment. In addition, USJFCOM program managers stated
    that USJFCOM Instruction 4200.1 does not specify a format for the program of
    action and milestones and milestone schedules so USJFCOM personnel’s use of
    electronic project files was acceptable.

    The Deputy Commander USJFCOM stated that USJFCOM personnel will
    provide a memorandum for the record in the project file if assessments, such as
    military utility assessments, are substituted for the feasibility assessments outlined
    in USJFCOM Instruction 4200.1. In addition, USJFCOM personnel will initiate a
    change to USJFCOM Instruction 4200.1 to reflect that military utility assessments
    can be substituted for a feasibility assessment and will specify a format for the
    program of action and milestones.




                                         10 

Audit Response. Although the Deputy Commander USJFCOM only partially
concurred with the recommendation, we consider the comments to be responsive
to the intent of the recommendation. We agree that the DoD Financial
Management Regulation and the National Archive Record Retention
Requirements provide guidance for retaining financial documentation. However,
our review of USJFCOM limited acquisition authority project files was more of
an adequacy of supporting documentation issue rather than a retention issue. We
concluded that the project files did not contain sufficient supporting
documentation to show that USJFCOM personnel actually completed the
mandatory requirements for the limited acquisition authority purchases as
USJFCOM Instruction 4200.1 requires. In addition, we determined that
USJFCOM personnel did not provide feasibility assessments. Also, programs of
action and milestones were milestone charts rather than detailed plans of action.
While not material, we considered the insufficient documentation to be an internal
control weakness because USJFCOM personnel could not provide sufficient audit
trails for the limited acquisition authority purchases. The changes that USJFCOM
personnel recommended to the procedures and the Instruction should help them
maintain sufficient documentation, provide audit trails on mandatory procedures,
and improve internal controls for the limited acquisition authority purchases. No
additional comments are required.

       b. Specify that the funding on funding documents for limited
acquisition authority purchases can be used only for those purchases.

USJFCOM Comments. The Deputy Commander USJFCOM nonconcurred,
stating that the funding document identifies the work or service to be performed
and can only be used for the purposes described. The funding document is legal
and in accordance with DoD Financial Management Regulation. The contracting
offices handle limited acquisition authority transactions no differently from other
contracting actions; consequently, an additional requirement to specify that
funding is issued under limited acquisition authority is not necessary.

Audit Response. We do not consider the Deputy Commander USJFCOM
comments to be responsive to the intent of the recommendation. We agree that
the funding documents meet the requirements of the DoD Financial Management
Regulation. However, we made the recommendation to facilitate the limited
acquisition authority process. For example, USJFCOM personnel submitted
47 funding documents for 6 projects for limited acquisition authority projects to
various DoD contracting offices. All of the limited acquisition authority purchase
requests were added to existing contracts that included other purchases in addition
to the limited acquisition authority purchases. Identifying funding documents for
limited acquisition authority purchases would readily show that those documents
contain special purpose funding. Therefore, we request that USJFCOM personnel
reconsider their position and provide comments to the final report.

2. Comply with the U.S. Joint Forces Command Instruction 4200.1,
“U.S. Joint Forces Command (USJFCOM) Limited Acquisition Authority
(LAA) Procedures,” July 14, 2005, requirement to complete all procedures
and waiver processes before personnel obligate funds for limited acquisition




                                    11 

authority projects and coordinate the funding process for the projects with
the approval process to prevent the practice of funding purchases before
approving projects.

USJFCOM Comments. The Deputy Commander partially concurred, stating
that the Commander, USJFCOM approved all limited acquisition authority
projects prior to issuance of funding in writing or verbally if the schedules of the
Command Group did not allow for written approval of the package prior to
execution. Also, in situations where USJFCOM personnel allow operational
forces to test and evaluate prototypes and the forces request the capability,
USJFCOM personnel must execute a limited authorization authority purchase to
transfer the equipment. Based on the example, the Military Interdepartmental
Purchase Requests documentation precedes the limited acquisition authority
approval process. USJFCOM personnel will initiate a change to USJFCOM
Instruction 4200.1 to reflect such a situation.

Audit Response. Although USJFCOM personnel only partially concurred with
the recommendation, we consider USJFCOM comments responsive to the intent
of the recommendation. The proposed change to the policy should allow
USJFCOM personnel to adequately document the exceptions that allow the
funding for those limited acquisition authority purchases that precede the
approval for the projects. The change should also improve internal controls for
the limited acquisition authority purchase process. No additional comments are
required.

3. Initiate a review for the limited acquisition authority purchases acquired
with operations and maintenance funding for potential Antideficiency Act
violations and report the results of the review to the DoD Comptroller.

USJFCOM Comments. The Deputy Commander, USJFCOM nonconcurred,
stating that no violation of the purpose statute occurred because the three projects
funded with O&M funding were for work that is part of the USJFCOM core
missions of Joint Integration and Interoperability. He agreed that the work should
not have been reported under the limited acquisition authority. Also, funding
document N0006604MPL805 I was appropriately used to provide in-theater
instructional training and technical support. Funding document
N006605WRL8030 was used in support of Joint Blue Force Situational
Awareness and paid for technical refresh training on the Joint Translator
Forwarder Rapid Attack Information Dissemination Execution Relay system.
Also, funding documents N0006605MPL8033, -35, -50, and -52 for the Speech-
to-Speech project paid for speech data collection/technical support, recording
equipment, assistance with translation, and associated temporary duty to observe
training.

Audit Response. We do not consider the USJFCOM comments to be responsive
to the intent of the recommendation. In the comments, the Deputy Commander
states that USJFCOM personnel funded the purchases with O&M funding and
that the work should not have been reported under the limited acquisition
authority. Documentation obtained from contracting offices confirms that
USJFCOM personnel cited O&M funding for the purchases. The National
Defense Authorization Act for Fiscal Year 2004 is silent on the use of O&M


                                     12 

funding for limited acquisition authority purchases. In Report Number GAO-07-
546, “Defense Acquisitions: Status and Challenges of Joint Forces Command’s
Limited Acquisition Authority,” April 2007, the Government Accountability
Office (GAO) noted that the limited acquisition authority statute does not
specifically provide authority to use O&M funding but USJFCOM personnel
believe that they can use the funding under certain conditions. Based on project
files, USJFCOM personnel did not provide documentation to support the use of
O&M funding for the purchases. Because the Deputy Commander concluded that
the work should not have been used under the limited acquisition authority,
USJFCOM personnel should determine whether O&M funding was proper when
other funding, such as such as RDT&E or procurement, should have been used
based on the National Defense Authorization Act for 2004. If USJFCOM
personnel determine that O&M funding was not the proper funding for the limited
acquisition authority purchases, they should determine if appropriate funding is
available and make the corrections. Also, until Congress clarifies its intent on the
use of O&M funding for limited acquisition authority purchases, USJFCOM
personnel probably should refrain from using the funding. Therefore, we request
that USJFCOM personnel reconsider their position and provide comments to the
final report.

4. Develop memorandums of agreement or understanding that address the
roles and responsibilities of U.S. Joint Forces Command personnel and
contracting office personnel for limited acquisition authority purchases.

USJFCOM Comments. The Deputy Commander, USJFCOM nonconcurred,
stating that USJFCOM personnel use Military Interdepartmental Purchase
Requests, Project Orders, and Economy Act Order documents that are DoD
Financial Management Regulation-recognized universal order formats that
sufficiently document an offer and acceptance. USJFCOM personnel consider the
recommendation to be an administrative process that will incur unnecessary
delays in an otherwise rapid DoD acquisition process.

Audit Response. We do not consider the USJFCOM comments to be responsive
to the intent of the recommendation. We agree that the forms USJFCOM
personnel use are standard DoD methods of documenting financial transactions.
However, USJFCOM personnel have a responsibility to provide appropriate
acquisition oversight and accountability for the limited acquisition authority
purchases. Although the memorandums are not mandatory, developing
memorandums with the contracting offices represent “best practices” for
organizations that provide services for or receive services from other
organizations. Developing agreements with the contracting offices will allow
USJFCOM personnel to better define roles and responsibilities, determine or
assign accountability, and negotiate terms of the contracting support, rather than
working with offices without recourse. Specifically, USJFCOM and contracting
office personnel should agree on processes, such as review and oversight of
contractors, subsequent actions required if problems with the purchases occur,
and the extent to which contracting offices they use adhere to practices and
procedures for the purchases and comply with Federal and DoD requirements.
Developing memorandums that identify roles and responsibilities for all
participants for limited acquisition authority purchases should also improve
internal controls for the limited acquisition authority purchases. Therefore, we


                                    13 

request that USJFCOM personnel reconsider their position and provide comments
to the final report.




                                 14 

Appendix A. Scope and Methodology 

   We performed the audit at the request of the Inspector General, USJFCOM to
   review processes associated with the limited acquisition authority. From
   October 1, 2004, through December 31, 2005, USJFCOM personnel approved six
   projects for purchase using the limited acquisition authority (see Appendix B).
   As of March 2007, USJFCOM personnel had not approved any projects for
   purchase using the limited acquisition authority since December 2005. We
   reviewed the six projects to determine whether USJFCOM personnel complied
   with procedures established for limited acquisition authority purchases. We also
   reviewed the documentation required for the phases for each project as shown
   below:

          1.	 Phase I: concept delivery;

          2.	 Phase II (a): feasibility assessment and approval/disapproval;

          3.	 Phase II (b): funding;

          4.	 Phase III: plan of action and milestone development, review, and
              approval; and

          5.	 Phase IV: project execution.

   In addition, we reviewed project documentation such as project proposals and
   their review and approval, statements of work, cost estimates, and funding
   records. We also reviewed the National Defense Authorization Acts for Fiscal
   Years 2004 and 2006, DoD policy, including DoD Instruction 4000.19 and the
   Defense Federal Acquisition Regulation Supplement, the DoD Financial
   Management Regulation, and USJFCOM Directive 4200.1 and Instruction
   4200.1. Further, we interviewed finance and budget personnel and the program
   managers at USJFCOM for each project. We performed this audit from
   November 2005 through September 2007 in accordance with generally accepted
   government auditing standards. The evidence provided a reasonable basis for our
   findings. Those standards require that we plan and perform the audit to obtain
   sufficient, appropriate evidence to provide a reasonable basis for our findings and
   conclusions based on our audit objectives. We believe that the evidence obtained
   provides a reasonable basis for our findings and conclusions based on our audit
   objectives

   We reviewed the contract documentation that the contracting offices provided for
   the limited acquisition authority purchases for the six projects. We did not review
   contracting procedures at the contracting offices to determine whether the
   contracting offices used contracting procedures that complied with Federal and
   DoD requirements. Further, to prevent duplication of effort, we coordinated our
   efforts with the GAO and focused primarily on the purchases using the limited
   acquisition authority while GAO focused on the details of the limited acquisition
   authority. For information on the GAO audit, see GAO Report Number GAO-06-



                                       15 

      240R, “Defense Acquisitions: Joint Forces Command’s Limited Acquisition
      Authority,” November 22, 2005.

      Use of Computer-Processed Data. We did not use computer-processed data to
      perform this audit.

      GAO High-Risk Area. GAO has identified several high-risk areas in DoD. This
      report provides coverage of the DoD Contract Management high-risk area.

Prior Coverage
      During the last 5 years, GAO has issued two reports discussing USJFCOM
      limited acquisition authority. Unrestricted GAO reports can be accessed over the
      Internet at http://www.gao.gov. No DoD Office of Inspector General reports have
      been issued on the subject.

GAO
      GAO Report No. GAO-07-546, “Defense Acquisitions: Status and Challenges of
      Joint Forces Command’s Limited Acquisition Authority,” April 2007

      GAO Report No. GAO-06-240R, “Defense Acquisitions: Joint Forces
      Command’s Limited Acquisition Authority,” November 22, 2005




                                         16 

     Appendix B. Projects for Limited Acquisition
                 Authority Purchases
                                                                          Number of   Range of Dates for   Type of
                                                               Date                                                  Amount Spent
  Project Name             Capability Provided                             Funding        Funding          Funding
                                                             Approved                                                on Purchases
                                                                          Documents      Documents          Used

                      Detects landmines and improvised
                                                             Date was                     03/12/2004       RDT&E
1. Change Detection   explosive devices along convoy
                                                              not in         22             through          and      $     550,000
   Work Station       routes by using visual imagery to
                                                             the file1                    06/29/20043       O&M4
                      identify and locate changes in
                      terrain

                      Improves communication for
2. Command and        commanders by allowing                                              01/13/2005       RDT&E
                                                             07/15/2005      12                                              4,033,945
   Control on the     broadband reach back to                                              through
   Move               information while on the move                                       08/26/20053
                      over rough terrain or dismounted
                      from a vehicle

                      Provides high-altitude precision       Date was                                      RDT&E
3. Joint Precision                                             not in        22           11/18/2004                         2,190,000
                      air drop of logistics support
  Air Drop System                                             the file                      through
                      packages for forces where ground
  2,000 Pounds                                                                            09/14/2005
                      delivery or an airfield is not
                      available
4. Joint Task Force
                      Provides joint task force                                                            RDT&E
   Commander                                                 07/15/2005      20           03/25/2004                          884,606
                      commanders remote access to
   Executive                                                                                through
                      classified and unclassified
   Command and                                                                            08/22/20053
                      networks while away from the
   Control
                      headquarters compound

5. Joint Translator   Provides machine-to-machine
   Forwarder Rapid    transfer of blue-force-tracking
   Attack             data from battle management and                                                      RDT&E
                                                             04/11/2005      32           03/09/2005         and             4,200,032
   Information        command and control systems to
                                                                                            through         O&M4
   Dissemination      strike aircraft by integrating blue-
                                                                                          03/15/20053
   Executive Relay    force-tracking capabilities across
   Joint Blue Force   the theater
   Situational
   Awareness

                      Expected to provide a hands-free                                    12/16/2005       RDT&E
6. Speech-to Speech                                          08/15/2005       8                                               270,500
                      device for simultaneous                                              through
   Translation
                      translation of American English to                                  12/16/2005
                      Iraqi Arabic and vice versa

         Total                                                               47                                           $12,129,083

     1
       USJFCOM personnel did not document the approval date but, according to file documentation, personnel
        dated a routing slip April 29, 2004, and they approved an amendment to the project June 16, 2004.
     2
       USJFCOM personnel specified that funds were for limited acquisition authority purchases on one of the
         funding documents for Projects 1 and 3 and two of the funding documents for Project 5.
     3
       USJFCOM personnel processed funding documents before they approved the project.
     4
       USJFCOM personnel cited O&M funding, which is not specifically authorized by the National Defense
         Authorization Act for Fiscal Year 2004.




                                                                   17
 Appendix C. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
   Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
   Deputy Chief Financial Officer
   Deputy Comptroller (Program/Budget)
Director, Program Analysis and Evaluation

Joint Staff
Director, Joint Staff

Combatant Command
Commander, U.S. Joint Forces Command
Inspector General, U.S. Joint Forces Command

Department of the Army
Auditor General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force



Non-Defense Federal Organizations and Individuals
Office of Management and Budget




                                          18 

Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Oversight and Government Reform
House Subcommittee on Government Management, Organization, and Procurement,
  Committee on Oversight and Government Reform
House Subcommittee on National Security and Foreign Affairs,
  Committee on Oversight and Government Reform




                                      19 

U.S. Joint Forces Command Comments 



                                     DEPARTMENT O F DEFENSE
                                                 COMMANDER
                                        U.S. JOINT FORCES COMMAND
                                      1562 MITSCHER	 AVENUE SUITE 200
                                           NORFOLK, VA 23551-2488

                                                                                           J01
                                                                                           29 May       2007

     M E M O R A N D U M FOR INSPECTOR GENERAL, DEPARTMENT O F DEFENSE

     Subject:   Report on Purchases Made Using the United Stales Joint Forces Command
                Limited Acquisition Authority (Project No, D2006-D000CG-0066.000)

     1. Appreciate D o D Inspector General support of our request for assistance in auditing
     USJFCOM execution of Limited Acquisition Authority (LAA) during the period 1 OCT 04
     through 31 DEC 05. Attached is the U.S. Joint Forces Command (USJFCOM) detailed
     response to the 30 APR 07 draft report.

     2. We non-concur with three of the four recommendations. Believe however that your
     recommendations, and our non-concurrences with these recommendations, reflect the
     evolving nature of this authority, and the aggressive manner in which we have leveraged this
     authority to deliver timely, joint solutions to meet urgent operational needs, A concurrent
     review undertaken by the Government Accounting Office (GAO-07-546), acknowledged in
     your Appendix A, examining the same projects that were audited here, observes that
     U S J F C O M ' s implementation of LAA has been uniformly lauded by the supported
     Combatant Commands and oversight officials in the Department of Defense.

     3. As US JFCOM's implementation of LAA is itself prototypical, believe the final report
     would be improved by focusing more on means for improving management control over
     what is an evolving process, and less on requiring strict compliance with an instruction that is
     neither current nor complete. For example, substitution of ACTD/JCTD Military Utility
     Assessments (MUAs) for the deliberate feasibility assessments otherwise required is both
     practical and prudent. Hence, a recommendation to develop more robust guidelines with
     regard to accomplishing feasibility assessments is more useful than a recommendation to
     adhere to the established standard,

     4. Given the specific rebuttals provided above and at the enclosure, the exigent
     circumstances that tend to hinder rather than promote LAA implementation, and the extent to
     which this authority has been successfully used to address urgent operational needs, we
     believe that the business processes and management controls designed and implemented by
     our LAA Program Management Office have been effective and sufficient. While we
     acknowledge room for improvement, and request your help in that regard, we do not accept
     your broad conclusion that management control has been ineffective at acquisition oversight
     and accountability over LAA purchases,.

     5. In accordance with DoD Directive 7650.3, my staff looks forward to the opportunity to
     work with your office in resolving the non-concurrences with your draft report. Our




                                                    21 

objective is two-fold: improve management control and improve the process. My primary
point of contact for all LAA matters is Mr. Robert Hartling, (757) 203-5762, (DSN 668), or
e-mail: robert.hartling@jfcom.mil.




                                            JOHN      R. W O O D
                                               Lieutenant General, U.S. Army
                                               Deputy Commander

Attachment:
DoD IG L A A Draft Report Response

Copy to:
USD (AT & L)
USD (Comptroller)
DJS




                                             22
The following comments are provided on the DoD IG Draft Report, Project No. D2006­
D000CG-0006.00, (Purchases made using U.S. Joint Forces Command Limited
Acquisition Authority).



References are to page numbers and paragraphs.

1. General: At the Exit meeting on the Discussion Draft we pointed out that alleged
weaknesses in purchasing and contracting should either not b e made in this document or
should clearly be marked as actions by others, since inclusion in this document implies
that such issues are J F C O M issues, which is not factually correct, as DoD (DPAP) and
the DoD IG agrees that J F C O M has no contracting authority to award or administer
contracts, JFCOM is responsible for satisfying requirements related to preparation and
approval of LAA projects, but it relies on other activities to perform acquisition functions
under the authority of a warranted contracting officer. See for example the entire
paragraph on page 4. DoD IG said it would look for a statutory or regulation it cited for
"developing agreements with contracting offices on the roles and responsibilities..." At
the meeting JFCOM pointed out that J F C O M must simply follow the rules of the
contracting office used, as procedures and policies vary with each contracting agency.
DoD IG was not able to cite an authority for the stated requirement, and said they would
seek one. This requirement is cited again at the top of page 5,


2.	 Paragraph at the top of page 4:

   a.	 Any alleged weaknesses in the contracting process of another agency 

       (contracting) should not b e attributed to JFCOM. 

   b.	 They allege that in four of six projects funds were obligated before the LAA
       project was approved. See our comments to recommendation 2.
   c.	 Use of O&M: See our comments to recommendation 3. The reference to a
       potential A D A violation is unwarranted.
   d.	 Funding documents did not indicate that they were for LAA purposes. See
       administrative procedures noted in our comments to recommendation l b .

3. Page 5: It appears unclear to the DoD IG team that feasibility assessments, proofs of
concept, and POA&Ms were not always required (e.g., already proven products, such as
C 2 0 T M , EC2 Suite, etc.). Most of the deficiencies noted in Table 1 fall into these
categories. Reference to, or attachment of, e-mails would have corrected almost all the
noted deficiencies.

4. Page 7, paragraph 3, Using Authorized Funding for Purchases: O&M was properly
used. See our comments to recommendation 3.




                                           23 

5.	 Comments to the Recommendations section, page 9;

    a.	 Recommendation 1. a: D o c u m e n t . . . completed mandatory procedures for
        limited acquisition authority purchases and maintain the documentation at least
        until the conclusion of the project.

         - Comment; Partially Concur. USJFCOM maintains documents LAW with (he
DoD FMR, Vol 1, Ch. 9 / N A R A guidelines. DoD FMR, Vol 1, Ch. 9 requires retention
of financial documents to a time period specified by the National Archives and Records
Administration (NARA) which is responsible to provide guidance and assistance for the
management and disposition of federal records. The NARA publishes general policies
for the management and disposal of records which can be found in sections 1220-1238 of
Title 36 of the Code of Federal Regulations. Procurement or purchase organization copy,
and related papers that exceed $2000 are retained for six years and three months after
final payment. The format for POA&Ms is not specified in JFCOMINST 4200.1 and
Milestone Schedules were deemed acceptable b y the LAA program Manager. POA&Ms
are not kept in paper project files but in electronic project files. If assessments, such as
ACTD/JCTD Military Utility Assessments (MUAs) are substituted for the feasibility
assessments outlined in USJFCOMINST 4200.1, a " M E M O R A N D U M FOR T H E
R E C O R D " stating that fact will be included in the project file. USJFCOM will initiate a
change to USJFCOMINST 4200.1 to reflect that an M U A can be substituted for a
feasibility assessment if technology under consideration is currently in an ACTD/JCTD
and a specific format for POA&Ms,

   b.	 Recommendation l.b: Specify that the funding on funding documents for limited
       acquisition authority purchases can b e used only for those purchases,

         - Comment: Do not concur. The description on the funding documents issued
by JFCOM describes the work or service to be performed, This description is legal in
accordance with FMR and the funding can only be used for the purposes described.
There is no additional requirement or need to identify that funding is issued under LAA
for the contracting agency. The contracting action is handled no differently for LAA than
for all other work. Internal procedures include the establishment and maintenance of a
document ledger identifying documents associated with each program.

   c.	 Recommendation 2: Complete all procedures and waiver processes before
       personnel obligate funds for limited acquisition authority projects and coordinate
       the funding process for the projects with the approval process to prevent the
       practice of funding purchases before approving projects.

       - Comment: Partially concur. All LAA projects were approved by the CDR,
USJFCOM prior Co issuance of funding. If prior written approval was not available, the
Chief of Staff, USJFCOM provided verbal approval based on his obtaining verbal
approval from the Commander. Due to schedules of the Command Group, written
approval of the package prior to execution is not always feasible. In situations where
prototypes are developed, then placed with operational forces for test and evaluation,




                                            24 

deemed to fill an existing C2, Intelligence, Communications or Interoperability shortfall
in the operational force and those forces then request the permanent addition of that
capability, JFCOM must execute transfer of that equipment under LAA. In such an
instance, MIPR documentation would precede the LAA approval process and LAA
documents could not be back-dated, so there are times when LAA approval must follow
the associated financial documents. USJFCOM will initiate a. change to USJFCOMINST
4200.1 to reflect such a situation.

    d.	 Recommendation 3: Initiate a review for the limited acquisition authority
        purchases acquired with operations and maintenance funding for potential
        Antideficiency Act violations and report the results of the review to the DoD
        Comptroller.

         - Comment: Do not concur. The projects funded with O&M were for work
that is part of the JFCOM core missions of Joint Integration and Interoperability. Concur
that the work should not have been reported under the LAA. No violation of the purpose
statute occurred,

                Document N0006604MPLS051 - was appropriately used to provide in
theater instructional training and technical support.

             Document N006605WRL8030 - in support of Joint Blue Force Situational
Awareness (JBFSA) paid for technical refresh training on JBFSA/Joint Translator
Forwarder Rapid Attack Information Dissemination Execution Relay system.

                Documents N0006605MPL8033, 35, 50, and 52 - Speech to Speech paid
for speech data collection/technical support, recording equipment and assistance with
translation and associated TDY to observe training.

   e.	 Recommendation 4: Develop memorandums of agreement or understanding that
       address the rales and responsibilities of United States Joint Forces Command
       personnel and contracting office personnel for limited acquisition authority
       purchases.

        - Comment: D o not concur. IAW FMR Volume 11A Chapter 1, the principal
documents used by DoD to document evidence of a formal offer and acceptance are
MOUs, MOAs and the universal order format. USJFCOM uses MIPRs, Project Orders
and Economy Act Orders which are recognized universal order formats. The universal
order format is a way to document the financial terms of the offer and acceptance when
specific services or quantities are known. JFCOM personnel consider this
recommendation an administrative process that will incur unnecessary delays in an
otherwise DoD rapid acquisition process.




                                           25 

Team Members
The Department of Defense Office of the Deputy Inspector General for Auditing,
Acquisition and Contract Management prepared this report. Personnel of the
Department of Defense Office of Inspector General who contributed to the report
are listed below.

Richard B. Jolliffe
Bruce A. Burton
Deborah L. Culp
Dianna J. Pearson
Joseph M. Bilock
John G. LaBelle
Curtis P. Greene
Michael T. Nishi
Jessica L. Gurtner
Meredith H. Johnson
